                                                   NATIONAL SCIENCE FOUNDATION                       /I
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

)(ICase Nurnber:I-04120046                                                                      Page 1 of 1



          In July 2004, the Office of Inspector General initiated a proactive review of participant sipport
          funds allocated to NSF awards. Participant support costs are expended to or on the behalf of
          participants or trainees (but not employees) for stipends, subsistence, travel and registratibn fees
          for conferences, symposiums and/or workshops. To that end, OIG randomly selected this award'
          for review.                                                                                  1




          Our initial review of the documentation submitted by the universitg revealed several
          expenditures that did not appear to be allowable under the participant support guidelines. li The
          preliminary inquiry was closed and an investigation was initiated in order to get further
          information from the university.
                                                                                                          I/


          Specifically, our review noted that participant support monies were used to pay lodging and travel
          expenses for the PI^ and several faculty members, salary was charged to the grant and other
          miscellaneous expenses not budgeted were charged to the NSF award.

          OIG contacted the university and asked for additional documentation or explanation of the bharges.
          A spreadsheet of all the charges that were inappropriately charged to the grant was prepared and sent
                                                                                                           I


          along with our request.                                                                      i
          After reviewing the additional documentation submitted and explanation for other charges to the
                                                                                                         11
          grant, OIG was satisfied that the majority of the travel expenses in question were legitimate expenses
          and dispersed properly; however, the remainder of the expenses4 in question were inappropriately
          charged to the grant. The university agreed to reimburse the NSF for those charges. Accordingly,
          this case is closed.
                                                                                                               I




                                                                                                                   I




                                                                                                                   II


           ' footnote redacted
             footnote redacted                                                                                     /I
             footnote redacted
           4
             footnote redacted
                                                                                                                   /I




 NSF OIG Form 2 (1 1/02)                                                                                               1
